FDIC Office of Inspector General Press Release: FORMER BRANCH BANKING AND TRUST EMPLOYEE SENTENCED
TO 30 MONTHS IN PRISON FOR MAKING A FALSE BANK ENTRY
United States Department of Justice
The United States Attorney's Office
Southern District of New York
U.S. ATTORNEY PREET BHARARA
CONTACT:
Ellen Davis, Jerika Richardson,
Jennifer Queliz, Mary Delsener
(212) 637-2600
FOR IMMEDIATE RELEASE
MANHATTAN U.S. ATTORNEY ANNOUNCES FILING OF 13-COUNT
INDICTMENT CHARGING KENTUCKY BUSINESSMAN, SENIOR PARK
AVENUE BANK OFFICIAL, AND FINANCIAL SERVICES EXECUTIVE
WITH FRAUDULENT SCHEMES
Kentucky Businessman Charged for $53 Million Tax Evasion Scheme and Other Fraudulent
Schemes Totaling Over $100 Million
All Three Defendants Charged for Massive Insurance Fraud Scheme
Preet Bharara, the United States Attorney for the Southern District of New York, Christy
Romero, the Special Inspector General for the Troubled Asset Relief Program ("SIGTARP"),
Mary Galligan, the Acting Assistant Director-in-Charge of the New York Office of the Federal
Bureau of Investigation, JosÃ© A. Gonzalez, the Special Agent-in-Charge of the Miami Field
Office of the Internal Revenue Service, Criminal Investigation Division ("IRS-CI"), Benjamin
Lawsky, the Superintendent of the New York State Department of Financial Services, James T.
Hayes, Jr., the Special Agent-in-Charge the New York Field Office of the U.S. Immigration and
Customs Enforcement's ("ICE") Homeland Security Investigations ("HSI"), and Jon T. Rymer,
Inspector General of the Federal Deposit Insurance Corporation ("FDIC-OIG"), announced
today the unsealing of a 13-count Indictment charging WILBUR ANTHONY HUFF, a Kentucky
businessman, and MATTHEW L. MORRIS, the former Senior Vice President of Park Avenue
Bank, with conspiracy to commit bank bribery, bank and insurance fraud, and theft of $2.3
million from a publicly traded company. HUFF, who is also charged with tax evasion, is alleged
to have participated in a variety of fraudulent schemes involving over $100 million. ALLEN REICHMAN, the former Executive Director of Investments at an investment bank and financial
services company, is also charged in the insurance fraud scheme, a scheme that left an
Oklahoma-based insurance company in receivership.
Manhattan U.S. Attorney Preet Bharara said: "Nearly two years ago, we secured the first
conviction against a defendant, Park Avenue Bank President and CEO, Charles Antonucci, for
attempting to steal $11 million from the taxpayer-funded TARP. Today's indictment charging
two of Antonucci's alleged co-conspirators represents 'Part Two' in our ongoing investigation
into the misconduct at the bank that ultimately led to its collapse. As alleged, Wilbur Anthony
Huff was a vortex of fraud who also evaded over $50 million in taxes owed to the IRS and, along
with Matthew Morris and Allen Reichman, plundered the assets of an insurance company,
leading to its business failure. We will not tolerate fraud or those who steal from taxpayers for
their own personal gain."
SIGTARP Special Inspector General Christy Romero said: "Charles Antonucci, the
former president and CEO of Park Avenue Bank, was the first person convicted of attempting to
steal from TARP, and today his co-conspirators are charged with their role in fraud at Park
Avenue Bank and elsewhere. Antonucci and his alleged co-conspirators falsely represented that
he had invested $6.5 million in the bank in order to convince regulators that the bank had
improved its capital position and later attempted to get $11 million in TARP funds. I want to
thank Preet Bharara, the assistant United States attorneys, and our other partners in this case for
joining SIGTARP's commitment to hold accountable those alleged to be involved in crimes
related to TARP."
FBI Acting Assistant Director-in-Charge Mary Galligan said: "The unifying theme of the
charges unsealed today is dishonesty. As alleged, the defendants conspired to deceive bank
regulators, insurance regulators, and investors, all with the aim of concealing their self-dealing
and the diversion of funds into their own pockets."
IRS-CI Special Agent-in-Charge JosÃ© A. Gonzalez said: "Tax evasion is a serious crime
against the American public. Mr. Huff allegedly violated his clients' trust by pocketing payroll
taxes that were to be paid to the IRS on their behalf. Today's indictment clearly shows that those
who allegedly violate the tax laws for their personal gain will be held responsible for their
actions."
New York State Department of Financial Services Superintendent Benjamin Lawsky
said: "This case once again reminds us that we must vigilantly fight bank fraud in all its many
shapes and sizes. DFS bank examiners and our criminal investigators will continue to use every
tool we have to ferret out bank fraud schemes and the corrupt individuals who hatch them at our
banks. DFS applauds the efforts of the SDNY under the leadership of U.S. Attorney Bharara,
SIGTARP, the FBI, and the other law enforcement agencies with whom we partnered on this
case."
ICE HSI Special Agent-in-Charge James T. Hayes said: "We at HSI are pleased to put an
end to an alleged scam that was motivated by greed. The expertise of our El Dorado Task Force
is perfectly suited to prevent the exploitation of U.S. financial systems. This case is an
outstanding example of how federal law enforcement agencies can work together to preserve and
prevent the exploitation of our banks."
FDIC Inspector General Jon T. Rymer said: "We are pleased to join our law enforcement
colleagues in announcing the indictment of Mr. Huff for his alleged role in schemes that
undermined the integrity of the banking and financial services industries. We are particularly
concerned when unscrupulous individuals, including those in positions of trust inside the
nation's banks, engage in fraudulent activities contributing to bank failures and corresponding
losses to the Deposit Insurance Fund. In the case of Park Avenue Bank, such losses were
estimated to exceed $50 million at the time of failure. We are committed to continuing our
efforts to help ensure the safety and soundness of our banks and the viability of the Fund."FDIC Inspector General Jon T. Rymer said: "We are pleased to join our law enforcement
colleagues in announcing the indictment of Mr. Huff for his alleged role in schemes that
undermined the integrity of the banking and financial services industries. We are particularly
concerned when unscrupulous individuals, including those in positions of trust inside the
nation's banks, engage in fraudulent activities contributing to bank failures and corresponding
losses to the Deposit Insurance Fund. In the case of Park Avenue Bank, such losses were
estimated to exceed $50 million at the time of failure. We are committed to continuing our
efforts to help ensure the safety and soundness of our banks and the viability of the Fund."
According to the allegations in the Indictment unsealed today in Manhattan federal court:
Background
WILBUR ANTHONY HUFF is a businessman who controlled numerous entities located
throughout the United States ("HUFF-Controlled Entities"). Rather than exercise control of
these companies openly, HUFF concealed his control by installing other individuals to oversee
the companies' day-to-day functions and to serve as the companies' titular owners, directors, or
officers. However, it was HUFF who actually controlled the companies and their finances, using
them to orchestrate a number of interrelated fraud schemes. Integral to the success of these
schemes was HUFF's corrupt relationship with Park Avenue Bank and its executives, Charles J.
Antonucci, Sr., the President and Chief Executive Officer and MATTHEW L. MORRIS, the
Senior Vice President. ALLEN REICHMAN, the Executive Director of Investments at an
investment bank and financial services company headquartered in New York, New York, also
was involved in one of HUFF's and MORRIS's corrupt schemes.
Fraud on the IRS and Huff's Clients
From 2008 to 2010, HUFF controlled O2HR, a professional employer organization
("PEO") located in Tampa, Florida. Like other PEOs, O2HR was paid to manage the payroll,
tax, and workers' compensation insurance obligations of its client companies. However, instead
of paying $53 million in taxes that O2HR's clients owed the IRS, and instead of paying $5
million to Providence Property and Casualty Insurance Company ("Providence P&C") â an
Oklahoma-based insurance company â for workers' compensation coverage expenses for O2HR
clients, HUFF stole the money that his client companies had paid O2HR for those purposes.
Among other things, HUFF diverted millions of dollars from O2HR to fund his investments in
unrelated business ventures, and to pay his and his family members' personal expenses. The
expenses included mortgages on HUFF's homes, rent payments for HUFF's children's
apartments, staff and equipment for HUFF's farm, designer clothing, jewelry and luxury cars.
Bribery of Park Avenue Bank Officials
From 2007 to 2009, HUFF bribed MORRIS and Antonucci in their capacities as senior
officials of Park Avenue Bank so that they would provide him and his businesses with illegal
favors in return. Specifically, HUFF paid MORRIS and Antonucci at least $400,000, in
exchange for which they: (1) provided HUFF with fraudulent letters of credit obligating Park
Avenue Bank to pay an investor in one of HUFF's businesses $1.75 million if HUFF failed to
pay the investor back himself; (2) allowed the HUFF-Controlled Entities to accrue $9 million in
overdrafts; (3) facilitated intra-bank transfers in furtherance of HUFF's frauds; and (4) fraudulently caused Park Avenue Bank to issue at least $4.5 million in loans to the HUFFControlled
Entities.
Fraud on Bank Regulators and a Publicly-Traded Company
From 2008 to 2009, HUFF, MORRIS, and Antonucci engaged in a scheme to prevent
Park Avenue Bank from being designated as "undercapitalized" by regulators â a designation
that would prohibit the Bank from engaging in certain types of banking transactions, and that
would subject the Bank to a range of potential enforcement actions by regulators. Specifically,
they engaged in a series of deceptive, "round-trip" financial transactions to make it appear that
Antonucci had infused the Bank with $6.5 million in new capital when, in actuality, the $6.5
million was part of the Bank's pre-existing capital. HUFF, MORRIS, and Antonucci funneled
the $6.5 million from the Bank through accounts controlled by HUFF to Antonucci. This was
done to make it appear as though Antonucci was helping to stabilize the Bank's capitalization
problem, so the Bank could continue engaging in certain banking transactions that it would
otherwise have been prohibited from doing, and to put the Bank in a better posture to receive $11
million from the TARP. To conceal their unlawful financial maneuvering, HUFF created, or
directed the creation of, documents falsely suggesting that Antonucci had earned the $6.5 million
through a bogus transaction involving another company Antonucci owned. HUFF, MORRIS,
and Antonucci further concealed their scheme by stealing $2.3 million from General
Employment Enterprises, Inc., a publicly-traded temporary staffing company, in order to pay
Park Avenue Bank back for monies used in connection with the $6.5 million round-trip
transaction.
Fraud on Insurance Regulators
From July 2008 to November 2009, HUFF, MORRIS, REICHMAN, and Antonucci
conspired to defraud Oklahoma insurance regulators into allowing Antonucci to purchase the
assets of Providence P&C â the Oklahoma insurance company that was owed $5 million by
O2HR. Specifically, HUFF and Antonucci devised a scheme in which Antonucci would
purchase Providence P&C's assets by obtaining a $30 million loan from an investment bank and
financial services company headquartered in New York, New York, (the "Investment Firm"),
and by promising Providence P&C's own assets as collateral for the loan. However, because
Oklahoma insurance regulators had to approve any sale of Providence P&C, and because
Oklahoma law forbade the use of Providence P&C's assets as collateral for such a loan, HUFF,
MORRIS, Antonucci, and REICHMAN made, and conspired to make, a number of material
misstatements and material omissions concerning the true nature of the financing for Antonucci's
purchase of Providence P&C. Among other things, REICHMAN directed Antonucci to sign a
letter that provided false information regarding the collateral that would be used for the loan, and
HUFF, MORRIS, and Antonucci conspired to falsely represent to Oklahoma insurance
regulators that Park Avenue Bank â not the Investment Firm â was funding the purchase of
Providence P&C.
After deceiving Oklahoma regulators into approving the sale of Providence P&C, HUFF,
MORRIS, and Antonucci took millions of dollars of the company's assets for themselves.
Among other things, MORRIS and Antonucci each received $500,000; MORRIS received
another $170,000 for serving as an executive at the company; and HUFF took $4 million, which
he used to continue the scheme to defraud O2HR's clients. REICHMAN received hundreds of
thousands of dollars in commissions as a result of the Investment Firm's loan â a loan that REICHMAN had been repeatedly warned not to extend because it was illegal. Ultimately, in
November 2009, the insurance company became insolvent and was placed in receivership after
HUFF, MORRIS, and Antonucci had pilfered its remaining assets
* * *
HUFF, 51, of Caneyville and Louisville, Kentucky, MORRIS, 37, of Queens, New York,
and REICHMAN, 52, of Irvington, New York, were arrested at their homes earlier this morning,
and they will be presented in federal court later today â MORRIS and REICHMAN in
Manhattan, and HUFF in Louisville, Kentucky. The case has been assigned to U.S. District
Judge Naomi Reice Buchwald, and the first conference is scheduled for October 10, 2012 at 3:30
pm.
Mr. Bharara praised the investigative work of SIGTARP, the FBI, the IRS-CI, the New
York State Department of Financial Services, ICE HSI, and the FDIC-OIG. Mr. Bharara also
thanked the United States Attorney's Office for the Southern District of Florida for its assistance.
This case was brought in coordination with President Barack Obama's Financial Fraud
Enforcement Task Force, on which Mr. Bharara serves as a Co-Chair of the Securities and
Commodities Fraud Working Group. President Obama established the interagency Financial
Fraud Enforcement Task Force to wage an aggressive, coordinated, and proactive effort to
investigate and prosecute financial crimes. The task force includes representatives from a broad   range of federal agencies, regulatory authorities, inspectors general, and state and local law   enforcement who, working together, bring to bear a powerful array of criminal and civil   enforcement resources. The task force is working to improve efforts across the federal executive   branch, and with state and local partners, to investigate and prosecute significant financial   crimes, ensure just and effective punishment for those who perpetrate financial crimes, combat   discrimination in the lending and financial markets, and recover proceeds for victims of financial   crimes.
A chart setting forth the charges against the defendants, as well as the maximum penalties
associated with each charge, is attached.
This matter is being handled by the Office's Complex Frauds Unit. Assistant U.S.
Attorneys Zachary Feingold and Janis Echenberg and Special Assistant U.S. Attorney Tino
Lisella are in charge of the criminal case.
The charges contained in the Indictment are merely accusations and the defendants are
presumed innocent unless and until proven guilty.
12-294
# # #